<html>
<title> - AFRICA COMMAND</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-100]

                             AFRICA COMMAND

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 14, 2007


        


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
44-633                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant















                            C O N T E N T S


                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, November 14, 2007, Africa Command.....................     1

Appendix:

Wednesday, November 14, 2007.....................................    41
                              ----------                              

                      WEDNESDAY, NOVEMBER 14, 2007
                             AFRICA COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Henry, Hon. Ryan, Principal Deputy Under Secretary of Defense for 
  Policy.........................................................     4
Mull, Ambassador Stephen D., Acting Assistant Secretary of State, 
  Bureau of Political-Military Affairs...........................     6
Ward, Gen. William E. ``Kip,'' USA, Commander, U.S. Africa 
  Command........................................................     8

                                APPENDIX

Prepared Statements:

    Henry, Hon. Ryan.............................................    45
    Mull, Ambassador Stephen D...................................    52
    Ward, Gen. William E. ``Kip''................................    61

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
                             AFRICA COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, November 14, 2007.
    The committee met, pursuant to call, at 10:08 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you very much for bearing with us. And, 
ladies and gentlemen, we welcome you to the Armed Services 
hearing on the United States African Command (AFRICOM).
    We have appearing before us the Honorable Ryan Henry, 
Principal Under Secretary of Defense for Policy; Ambassador 
Stephen Mull, Acting Assistant Secretary for the Bureau of 
Political-Military Affairs; and General Kip Ward, the 
Commanding General of Africa Command.
    And, General, we welcome you and thank you for being with 
us today.
    This is a reminder today that there are places in the world 
well beyond Iraq and Afghanistan that we must be concerned 
with, and this is a new thought, a new venture, and we in our 
country need to pay a great deal of attention to it.
    When you stop and think about it, Africa represents a range 
of real and potential national security-related concerns and 
deserves great consideration by us.
    First, of course, is that Africa is a theater in the war on 
terror. We remember the attacks on the American embassies in 
Tanzania and Kenya in 1998.
    And today Operation Enduring Freedom-Trans Sahara (OEF-TS) 
is ongoing as we speak, with American forces working with their 
African counterparts in places like Algeria, Chad, Mali, 
Morocco, Nigeria and Tunisia to strengthen the region's 
counterterrorism efforts--one or more of those nations and 
large portions of territory where no state government really 
exists and terrorists can find safe haven, sadly, in those 
ungoverned places.
    So we do welcome you gentlemen. We look forward to your 
testimony. I will ask that the balance of my prepared statement 
be put in the record without objection.
    And I will ask our esteemed ranking member for his comments 
at this time.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    And welcome to General Kip Ward, who appears before this 
committee for the first time as the commander of the new United 
States Africa Command.
    And, General, we value your continued commitment and 
services. We recognize the growing importance of stability on 
the African continent and its significant impact on the 
international security environment and especially the global 
war on terror.
    We also welcome the Honorable Ryan Henry and Ambassador 
Stephen Mull, who will certainly provide insight into both the 
creation of AFRICOM and its future as a model of interagency 
cooperation.
    Ever since the Department of Defense (DOD) released its 
latest Quadrennial Defense Review (QDR) in February of 2006, we 
in Congress have been watching to see how the Department would 
translate its multitude of findings and recommendations into 
some concrete steps that will help the young men and women of 
our U.S. military meet the challenges of a changed and still-
evolving security environment.
    Earlier this year, President Bush announced his decision to 
create AFRICOM as one such step. At the time, he noted that 
``this new command will strengthen our security cooperation 
with Africa and create new opportunities to bolster the 
capabilities of our partners in Africa. Africa Command will 
enhance our efforts to bring peace and security to the people 
of Africa.''
    Over the last several decades alone, we can all recall the 
horrifying genocides, rebellions and civil wars and the natural 
disasters that have occurred on the African continent.
    These events, which raised death tolls to unimaginable 
levels and caused massive influxes of refugees and internally 
displaced people, serve as a grim reminder of what we all stand 
to lose in the face of massive instability.
    We see this reminder still in the current situation within 
the Darfur region of Sudan and in the continued saber-rattling 
within several other Africa subregions.
    So I agree with the President's goals as he laid out 
earlier this year--development, health, education, democracy 
and economic growth.
    The question becomes, though, how a United States combatant 
command can best work toward these goals which, to be honest, 
may contribute to national security but are not viewed as 
traditional military goals.
    My questions are therefore twofold. First, many media 
outlets and regional experts report that Africa officials have 
expressed significant misgivings that the establishment of 
Africa Command will lead to the militarization of our relations 
with their nations.
    In light of the number of coups and armed conflicts that 
have occurred in Africa since many of those nations gained 
independence, I imagine that those officials are justifiably 
wary of anything with even a hint of militarization.
    In addition, in a briefing I recently received, I learned 
that the U.S. Government spends about $9 billion per year in 
Africa on health, development, trade promotion and good 
governance activities.
    Yet we spend only $250 million annually on building 
capabilities and capacities for peacekeeping, border and 
coastal security, and logistics and airlift support for 
peacekeeping, as well as holding training exercises and 
bilateral events.
    Mr. Henry, you also highlighted this disparity in your 
written testimony.
    Given their possible distrust of foreign military influence 
and given this disparity in the focus of U.S. aid, how are we 
reassuring our African friends that this new command will not 
lead to increased U.S. efforts to control or otherwise 
influence their militaries?
    And how have you responded to their concerns as expressed 
to date? And what is your plan for continued engagement on such 
future concerns?
    My second question focuses on the interagency aspect of 
this new command. I understand that AFRICOM is attempting to 
establish a complementary mix of military and civilian 
personnel with officials from the State Department and the 
United States Agency for International Development (USAID) 
working side by side with Defense Department officials.
    However, I have also heard rumblings that U.S. embassy 
personnel in African capitals and elsewhere may be suspicious 
of an overarching regional construct, particularly one that is 
essentially a military combatant command.
    The best way I think of to ensure that a player is fully 
invested in a successful team-oriented outcome is to make 
certain that player is literally invested.
    Given that a significant number of AFRICOM personnel will 
be State Department and USAID officials, please describe the 
cost-sharing arrangement for Fiscal Year 2008 and in future 
fiscal years so that we can rest assured non-DOD players are 
full stakeholders in the success of this command and its 
interagency missions.
    And particularly, gentlemen, I have always been concerned 
with the standup of military operations which end up being 
viewed as a money payer by the other agencies, and I hope that 
we will see burden-sharing in this, what really has to be 
considered to be a joint venture in Africa.
    In closing, we have seen how ungoverned and undergoverned 
spaces can become safe havens for terrorists. By partnering 
more closely with nations on the African continent, we can help 
to develop more secure borders, more responsible and capable 
military forces and security institutions that are more 
responsive to national governments, and we can help to close 
the doors of any safe havens located there.
    I look forward to hearing how standing up AFRICOM will 
expand upon those efforts.
    And once again, General, as we discussed a little earlier, 
General Ward, I think that one of the real values of the 
combatant commands around the world and the military presence 
is the development of those relationships between military 
leaders in those countries and American military leaders.
    And to a large degree, I have seen our military leaders as 
being really, truly our best ambassadors, our best diplomats. 
And I would think that establishing working relationships with 
the military leaders of the African states will accrue to our 
benefit in the future.
    And it is an area that we should prioritize in terms of 
developing relationships, having lots of visits to American 
training commands, and trying to build long-term, stable 
relationships that will pay off 5 years, 10 years, 15 years, 20 
years from now.
    So thank you, gentlemen. Thanks for being with us this 
morning.
    Mr. Chairman, thank you for holding this very important 
hearing.
    The Chairman. I thank the gentleman.
    I have invited Don Payne, the subcommittee chairman on 
Africa from the Foreign Affairs Committee, to join us, and 
without objection he will be with us today.
    And with that said, Secretary Henry, welcome.

STATEMENT OF HON. RYAN HENRY, PRINCIPAL DEPUTY UNDER SECRETARY 
                     OF DEFENSE FOR POLICY

    Secretary Henry. Thank you, Mr. Chairman. We are genuinely 
appreciative of the opportunity to come and talk to you today.
    We have found that dialogue and discussion not only helps 
inform people of where we are trying to go with the command but 
also enriches our efforts in standing up this new command with 
a new construct. So we genuinely look forward to it.
    The fact that Africa is rising in significance to the 
United States is undeniable. The reorganization of our military 
structure within the Department of Defense to accommodate a 
continental unified command is just a manifestation of that 
growing importance.
    In my submitted statement, I outlined the rationale, 
structure and objectives for guiding the creation of AFRICOM 
and addressed some of the ranking member's second question. 
Hopefully, in my oral statement, I will address some of your 
first question.
    Because over the course of hundreds of consultations 
regarding AFRICOM, we as a group have learned that the vast 
majority that we talk to have initial reservations about the 
new command, and especially those on the African continent, and 
that these misgivings are fed by misperceptions and 
recirculated myths.
    These misunderstandings--they tend to cloud the dialogue 
until they are adequately addressed, and therefore I would like 
to use the brief period I have for my oral statement to address 
these misunderstandings and thereby afford General Ward and 
Ambassador Mull the opportunity to address the proactive 
aspects of AFRICOM in their statements.
    First myth: Many Africans and even some of their leaders 
suspect that we are establishing AFRICOM to further some 
specific Department of Defense agenda on the continent. And it 
usually comes down to three variants of that.
    Either we are there solely to fight terrorism and thereby 
will make the continent a bigger target for terrorist activity, 
or we are there to counter growing Chinese influence and 
thereby we are going to polarize the continent between two 
superpowers, or even we are there to secure Africa's mineral 
wealth--usually it is specifically oil they think that we are 
after--and thereby exploit the continent in a neo-colonial 
fashion.
    These myths just are not true. Violent extremism and the 
safe havens afforded to them by ungoverned, misgoverned and 
undergoverned areas is a concern which we will address in 
cooperation with our African partners in a manner similar to 
the way we do today, each and every day, but it is not the 
singular focus of the command.
    The United States, China and other countries share a common 
interest in a stable, secure and rising Africa. And though we 
may differ on the means, we look forward to cooperating with 
China as a responsible international stakeholder to achieve 
that end.
    Additionally, while natural resources represent much of 
Africa's current and future material wealth, it is in a stable 
environment where Africans have unimpeded access for bringing 
their goods to the world marketplace that will deliver the most 
benefit to Africans and, I might add, non-Africans.
    The second set of myths swirl around the claim that AFRICOM 
is a manifestation of a militarization of foreign policy, the 
Pentagon's effort to make inroads in the area of foreign 
policy. This is also false.
    AFRICOM will not change the State Department's role as the 
lead in foreign policy.
    Each of our ambassador's authorities as the chief of 
mission in any country will not just be respected but will be 
reinforced by AFRICOM's cooperative and integrated whole 
government approach to security issues under the country team 
leadership of the ambassador.
    And I think it is notable with Ambassador Mull being here 
today--and in each and every meeting or deliberation that we 
have had regarding AFRICOM, there has been a representative of 
the State Department there.
    The third generic myth is that some accuse AFRICOM of being 
a unilateral mechanism for seizing control of security issues 
on the continent. Again, this is not why we need an AFRICOM.
    Africans will continue to lead efforts to address their own 
security challenges. The Department of Defense recognizes and 
applauds the leadership role that Africans both on a regional 
and individual basis and also the African Union are taking to 
promote security and stability.
    We seek to complement these efforts in a supporting role, 
not to compete with them in a leadership role. Through many of 
our capacity-building programs, we seek to support, not 
supplant, African leadership.
    U.S. national security is enhanced most on the continent 
when African nations and organizations can address and resolve 
emerging security issues before they erupt into regional and 
international crises that will require, then, international 
intervention.
    Finally, despite such misrepresentations, AFRICOM was not 
developed in a vacuum. Our outreach campaign was comprised of 
hundreds of separate engagements with African nations both on 
the continent and here in Washington, D.C., with Congress, 
nongovernmental organizations, the media, multilateral 
institutions and numerous foreign governments in Europe and 
Asia.
    Constant and continuing dialogue with our African partners 
has genuinely influenced the development of the command. I have 
personally been to the continent twice to consult with the key 
leaders of 14 different nations.
    And despite some public accounts to the contrary, almost 
all the African nations expressed their appreciation for the 
greater U.S. engagement in Africa and their support for our 
desire to work with the African Union (AU).
    Overwhelmingly, once people are educated about the command, 
their fears subside and their interests are heightened.
    Of course, no matter the extent of our outreach efforts, 
rumors will persist, and the key to dispelling rumors, in 
addition to speaking with you here today, is to stand up 
AFRICOM and demonstrate that these fears have no foundation.
    We are thrilled to have General Ward in command of AFRICOM 
and believe his efforts to execute defense policies on the 
continent will be successful and continue to be received 
favorably by Africans. Thank you.
    [The prepared statement of Secretary Henry can be found in 
the Appendix on page 45.]
    The Chairman. Thanks so much, Mr. Secretary.
    Ambassador Mull.

   STATEMENT OF AMBASSADOR STEPHEN D. MULL, ACTING ASSISTANT 
    SECRETARY OF STATE, BUREAU OF POLITICAL-MILITARY AFFAIRS

    Ambassador Mull. Thank you very much, Mr. Chairman, Ranking 
Member Hunter. It is a great delight to appear before the House 
Armed Services Committee again today to talk about AFRICOM.
    Africa today is a place of promise and opportunity linked 
to the United States through culture, history and commerce. But 
it is also a place of severe challenges such as poverty, 
disease, terrorism and instability that all together pose 
critical risks for U.S. interests.
    From the very first conversation between the Departments of 
State and Defense on the idea of AFRICOM more than a year ago, 
we at State have enthusiastically welcomed the idea of a 
unified command for Africa which would feature a number of 
exciting innovations, including the transformation of the U.S. 
military strategic approach to the continent from three 
separate commands into one; expanded attention to building the 
military capacity of our African partners so that they can 
better work together with us in confronting the common threats 
we face such as terrorism, ungoverned areas, and civil and 
international conflicts, as the chairman mentioned; but also 
feature a more coherent approach to important regional security 
concerns that affect America's vital interests.
    It would provide a more efficient way of giving emergency 
humanitarian assistance and managing the response to military 
crises.
    And it would provide an unprecedented new way of 
interagency cooperation that would feature opening the door to 
substantial civilian agency involvement in the command, 
including by putting senior civilians in leadership positions 
in the command.
    Our enthusiasm for the idea only increased with the 
appointment of General Kip Ward, whose strong leadership skills 
and warm personal relationships across the continent will only 
augur well for the command's success.
    From the very beginning of planning for AFRICOM, State was 
an integral partner. We assigned officers to join the command 
design team here in Washington and later in Stuttgart, and many 
aspects of the new command reflect substantial input by State 
and other civilian officials.
    We collaborated in briefing your staffs here in the 
Congress, appropriate nongovernmental organizations, African 
governments and in briefing the press.
    We joined in officially briefing key African partners on a 
series of trips to the region and at a conference here in the 
United States. And we joined in briefing key allies and 
partners around the world on our intentions.
    The result of this collaboration is a command that will 
substantially improve the U.S. Government's effectiveness in 
responding to Africa's unique challenges and in creating an 
atmosphere that is favorable to America's considerable 
interests there.
    In describing AFRICOM, it is probably more important to 
describe what it is not. It will not take the place of the 
Department of State and of U.S. embassies in the field as the 
voice of American foreign policy in our relationships with 
African states and organizations.
    It will not have any authorities beyond those that U.S. 
military commands already enjoy.
    It will not establish new military bases on the African 
continent.
    It will not have any less responsibility to obtain chief of 
mission concurrence and coordinate all its activities in 
individual countries.
    Its civilian officials will not exercise any authority on 
behalf of their parent agencies.
    And finally, to Congressman Hunter's remarks, I believe 
that will not supplant U.S. foreign assistance activities. Last 
year, total U.S. foreign assistance for Africa totaled to be 
about $9 billion. AFRICOM's resources will be substantially 
less than that, three percent to five percent of that, 
depending on how the budget turns out.
    Now, conversely, here is what the command will allow. 
Instead of a more traditional focus on preparing for combat, 
AFRICOM will concentrate on a more strategically coherent focus 
on our security cooperation and military relationships in 
Africa and more effective support of important programs that we 
fund with Foreign Military Financing (FMF), International 
Military Education and Training (IMET), peacekeeping funds and 
Section 1206 funds.
    These programs include the President's Global Peacekeeping 
Operations Initiative (GPOI), which aims to train tens of 
thousands of new troops for peacekeeping operations; the Trans-
Sahel Counterterrorism Initiative, which aims to improve the 
capacities of northern and central African states to respond to 
the terrorist threat; the Maritime Security Initiative in the 
Gulf of Guinea which aims to increase the ability of the 
region's states to provide for their own maritime security and 
other African coastal and border security programs.
    It will help support the East African counterterrorism 
initiative and support for peacekeeping missions in Africa such 
as the United Nations (U.N.) mission in Darfur.
    AFRICOM will also help support security sector reform in 
such key places as Liberia and southern Sudan.
    Also, importantly, it will allow civilian agencies like 
State and AID to have a seat at the table in shaping the 
military support of these programs, working in close liaison 
with all of our embassies on the continent.
    We are proud that the State Department has already 
contributed Ambassador Mary Carlin Yates as one of the two 
deputies to the commander and look forward to contributing a 
number of other officers to assist and guide the command in its 
work, such as a foreign policy adviser, Jerry Lanier, who joins 
me here today.
    There will obviously be substantial challenges to overcome 
in standing up this command regarding the location or locations 
of the command, security and infrastructure concerns, winning 
political and diplomatic support for the command on the 
continent, and sorting out the status of AFRICOM's forces in 
the countries where they reside both with host governments and 
resident U.S. embassies.
    But we are confident, based on our extremely productive 
interagency partnership thus far, that we are going to succeed 
in overcoming those challenges and scoring a real win for 
America's interests in Africa in the longer term.
    Thanks very much for the opportunity to appear before you 
today, and I look forward to taking your questions.
    [The prepared statement of Ambassador Mull can be found in 
the Appendix on page 52.]
    The Chairman. Mr. Ambassador, thank you very much.
    General Ward, please.

 STATEMENT OF GENERAL WILLIAM E. ``KIP'' WARD, USA, COMMANDER, 
                      U.S. AFRICA COMMAND

    General Ward. Thank you, Mr. Chairman, Congressman Hunter, 
distinguished members of the committee. I am honored to be 
appearing before you in my position as the commander, United 
States Africa Command.
    U.S. AFRICOM was created to consolidate and focus the work 
of the Department of Defense and to enable us to better support 
United States policy in Africa.
    I believe that U.S. AFRICOM will add value to America's 
security cooperation projects and the delivery of American 
security assistance programs in Africa, thus making them more 
efficient and responsive.
    The leadership of the African Union was positive in their 
support for this objective during my visit with them just this 
past week. And I might add that I discussed this with 23 
separate African ambassadors to the A.U.--again, overwhelming 
support for the objectives of the command.
    It is in our national interest to build an enduring 
organization designed to enhance our government's capacity to 
help Africans care for their stability, development and 
prosperity.
    AFRICOM is a command under construction. We are building 
the team. We would like to realize a complementary mix of 
Department of Defense civilian and military staff and, as has 
been noted, representatives from across the interagency 
departments of our government.
    With the goal of achieving full operational capability as a 
unified command by October 2008, U.S. AFRICOM endeavors to be 
innovative in its construct.
    Our intention is to move beyond the traditional concept of 
liaison officers and instead have our interagency partners 
serve in staff positions alongside their Department of Defense 
counterparts.
    U.S. AFRICOM will complement, as the under secretary 
pointed out, not compete with, the activities of other U.S. 
governmental activities and organizations.
    U.S. AFRICOM will, indeed, add value and, in so doing, do 
no harm to the collective and substantial ongoing security 
cooperation programs and other efforts on the continent.
    We will do everything in our power not to disrupt or 
confuse current security and stabilizing efforts in Africa. We 
do need to be aware of those other activities.
    We will add value by harmonizing U.S. military efforts to 
maximize the effectiveness of our programs in Africa.
    U.S. AFRICOM will respect the leading roles for the U.S. 
Department of State in our Nation's foreign policy and U.S. 
Agency for International Development in our Nation's 
development and humanitarian assistance programs.
    U.S. AFRICOM will seek to promote relationships and build 
partnerships to enable the work of Africans in providing for 
their own security. It begins with listening and understanding 
our African partners' definitions of their own environment and 
interest.
    Appreciation of their perspective will allow us to jointly 
identify ways and means that address both African and American 
interests.
    Our intent is to build mutual trust, respect and confidence 
with our partners in Africa and our international friends 
through sustained engagement by a single unified command 
dedicated solely to Africa.
    We will work with African nations and their security 
organizations as partners.
    I would like to reaffirm that AFRICOM will sustain ongoing 
activities as it accepts new missions in a seamless transition 
from the three existing geographic combatant commands in 
Africa.
    Past activities have made visible and measurable 
differences on the ground, through professionalism of military 
units and by showing that America is a caring and loyal 
partner. These types of events and programs will continue.
    They include medical readiness exercises. You are familiar 
with MEDFLAG and Medical Civic Action Program (MEDCAP).
    Communications interoperability enhancements through Africa 
Endeavor, disaster preparedness exercises. You are familiar 
with Natural Fire and Golden Spear.
    Capacity-building exercises. You are familiar with 
Flintlock.
    Security sector reform activities such as in Liberia. And 
State partnership programs where we are now up to eight in 
Africa.
    U.S. AFRICOM will actively support the State Department in 
training African peacekeepers under the African Contingency 
Operations Training and Assistance Program, or ACOTA.
    New U.S. activities such as the African Partnership Station 
(APS) demonstrate the types of activities that U.S. AFRICOM 
will promote as forces for good in bringing stability to the 
continent of Africa.
    Showing our commitment to these relationships requires 
enhanced and expanded resources for our African partners. 
International military education and training, as was 
mentioned, and foreign military financing remain important 
tools for building capacity on the continent for generations to 
come.
    U.S. AFRICOM represents the United States Government's 
long-term commitment to strengthen our security ties with 
Africa.
    We will endeavor to assist African nations in enhancing 
security and stability for the peoples of Africa where growth 
and expanded horizons exist for future generations, thus 
increasing our stability here in America.
    We will move forward in a very deliberate manner so that 
decades from now all of us will be able to look back and see 
that the foundation we laid for this new command is something 
to be proud of, something that America stands to benefit from.
    It is an honor to continue to serve alongside the 
outstanding soldiers, sailors, airmen, Marines and statesmen of 
the United States Africa Command. Thank you very much.
    [The prepared statement of General Ward can be found in the 
Appendix on page 61.]
    The Chairman. General, thank you so much.
    I have two quick questions before I ask Mr. Hunter and the 
other members of the committee.
    The headquarters today is in Stuttgart, Germany, am I 
correct?
    General Ward. Correct, sir.
    The Chairman. And where will the new headquarters of the 
Africa Command be, please?
    General Ward. Mr. Chairman, that decision has not been 
established. At the current time, there are activities taking 
place on the continent to determine, based on a series of 
factors, including items such as infrastructure, stability, 
political receptiveness, locations, locale, the ability to move 
around--those are all being looked at now.
    The construct of the headquarters on the continent has not 
been determined. There are models that are discussed under 
deliberation with respect to a distributed headquarters where 
elements of the staff might be located in various parts of the 
continent.
    But again, Mr. Chairman, those decisions have not been 
taken and will not be taken until further deliberation and 
understanding is there and in consultation with you, with the 
Administration here, has taken place.
    The Chairman. Do you have a judgment as to when that 
decision will be made?
    General Ward. Sir, at this time I do not. We are looking 
closely at the various factors because we understand the 
implications for the follow-on budgetary cycle, but as I 
pointed out, sir, we have been cautioned to be very deliberate 
in that.
    We are moving apace with the work to determine the 
potentials, but then the negotiations--we have to be invited to 
a particular location, and so those are the efforts that are 
still to be accomplished.
    And as we move those efforts along, we will certainly keep 
you informed. But I cannot put a timeline on it now. We do have 
a goal, Mr. Chairman, that by the time we achieve full 
operational capability, which is October of 2008, that some 
element of the headquarters will be operating on the continent.
    The Chairman. On the continent.
    General Ward. Correct, sir.
    The Chairman. One last question. We all know the stretch 
and the strain under which the United States Army is operating 
today. Where will you get your manpower for this new command?
    General Ward. At the current time, sir, the manpower for 
the new command is being distributed from existing activities 
of the joint manning apparatus. As you are aware, currently 
U.S. European Command (EUCOM), U.S. Central Command (CENTCOM), 
U.S. Pacific Command (PACOM) do activities on the continent.
    The initial operating capability that we will continue to 
work toward achieving throughout this coming series of months 
will draw upon those assets as well as other assets that would 
be redistributed into the command from existing combatant 
command accounts.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thanks, Mr. Chairman.
    Just very briefly, the chairman went over an important 
aspect. That is the pull on personnel necessary to staff the 
command.
    Have you done an analysis on what the incremental increase 
in DOD costs will be that will be attributed to the African 
Command above and beyond what we are spending in that area now 
under the existing commands?
    Secretary Henry. Well, we will stand up AFRICOM within our 
top line. As far as the funding goes, it will come out of 
funding that is--we have the funding for the coming year, and 
the funding takes--during this year, General Ward and his staff 
will be laying out the program over a five-year program to 
determine what that funding will be.
    So we have brought that forward as an issue in our budget 
build for this coming year and have reallocated dollars. The 
size of the command will be on the small size of what normal 
combatant commands are.
    And just a minor nuance to what General Ward said. The 
staffing is coming from those officers that we currently have 
in joint billets, many of which will be in joint combatant 
commands, but some which might be in other joint billets that 
we will use to man that.
    Mr. Hunter. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ortiz, the gentleman from Texas.
    Mr. Ortiz. Thank you, Mr. Chairman.
    I have a question for anybody that would like to answer. I 
understand that in late October 2007 members of the Pan-African 
Parliament, which is the legislative body of the African Union, 
voted in favor of a motion to prevail upon all African--
Americans' government request to host AFRICOM anywhere in the 
African continent.
    They voted that they, at this point, did not understand 
exactly what we wanted to do. And I know that what we are 
trying to do now is to stay ahead of the curve. We are doing 
something differently than what we have done before, like after 
9/11 and some of the other things now.
    How much longer do you think that it will take for us to 
convince this legislative body that what we are trying to do is 
the right thing to do for the African nations and for the 
continent?
    And I don't know what you have been working on, but is this 
a true fact that they voted against trying to accede to the 
United States demand that we--if somebody can answer that 
question.
    Ambassador Mull. Yes, sir. I can tell you that as both 
Secretary Henry and General Ward mentioned in their remarks, 
the launch of AFRICOM when we went public with it did generate 
some skepticism on the African continent.
    And so that is why we have decided to approach this very 
deliberately. And we find that as we consult with people 
privately, the response has generally been very, very positive.
    However, we want to make sure that we don't establish a 
formal presence on the continent until such time that the 
diplomatic climate and the political climate is right.
    And fortunately, our good allies the Germans have said that 
they would welcome our continuing there in Stuttgart for as 
long as it takes to do that. So we have a place not too far 
from the African continent where we can continue to operate.
    I would note that--there has been a lot of positive 
response to this initiative as well. Certainly, president 
Sirleaf-Johnson of Liberia has publicly said that she welcomes 
us and, in fact, would like Liberia to be the host of the 
headquarters.
    That is only one of many options that we are looking at. 
But we will not stand up this command on the continent until we 
are welcome to do so by the countries there. And we are 
confident that that day will come.
    Secretary Henry. I might add that both General Ward and 
myself have been to the African Union on several different 
occasions and talked to the top leadership, the members, the 
ambassadors, and consistently they are positive in regard to 
what we are trying to do.
    Early on, there had been a fourth myth, one I didn't 
address, that is Africa-specific, and that is that with the 
coming of AFRICOM there would--be the large infusion of 
American combat forces and basing on the continent.
    So normally when we go to talk to them, that is the first 
rumor that we knock down. There are no new bases envisioned in 
AFRICOM, and there are no combat troops.
    There is a staff element to which General Ward talked 
about, that a portion of which will be interfacing with 
Africans, we believe is important that they are on the 
continent.
    Once we get by that myth and the other three myths, then 
people are positive. They are looking forward to Americans 
participating.
    Uniformly, among the African nations, they ask us to have a 
close relationship with the African Union. That is who they 
look to for continental security and who they would like us to 
work with. And again, we have had a very cordial relationship 
with them.
    Mr. Ortiz. Another problem that I see--and I am all for 
trying to nourish that relationship with the African countries 
and the African continent.
    But there was a little problem not too long ago when some 
of the employees of the State Department decided that they did 
not want to be assigned to Iraq because of the seriousness of 
the problems and the war zone.
    Do you anticipate that maybe we will have the same problem 
by assigning State officials to an area that we are not sure 
whether they like us or not or whether it is the proper time to 
move in or not?
    You don't think that will play a role in moving some of the 
State Departments to an area that we don't know what we are 
going to do?
    Secretary Henry. Well, Ambassador Mull is the expert on 
that. I will let him follow up. But to date, we have had a 
surprisingly strong request for information about how 
interagency personnel can participate, requests from people to 
find out where they get in line to be able to sign up for it.
    We haven't come up with exact billet structure, so we can't 
put billets against individuals or agencies yet. But from what 
we can see, that will be the least of our problems.
    Ambassador Mull. I would add that since we have begun 
working with the Defense Department on the standup for this 
command there has been substantial interest from within the 
ranks of the Africanists within the foreign service to be 
assigned to participate in this command, and we have had more 
expressions of interest than we, frankly, have spaces to fill.
    And if I could, I know the subject of today is not Iraq. I 
just would like to give you an update on Iraq in that of the 
250 positions that we are filling this year, we now have 
volunteers identified for 240 of them and expect to find 
volunteers for the remaining 10 in the next week or so.
    Mr. Ortiz. My time is up.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Remembering all those years when I sat in one of the lower 
rows and never had a chance to ask my question, I am going to 
yield my time to the most junior member in attendance today, 
which happens to be a gentleman from my birth state, Mr. Davis.
    Mr. Davis of Kentucky. I thank the gentleman.
    The interagency reform issue is a very personal one with 
us, and I am watching some really good things that have 
happened in Africa.
    Particularly the operations in the Horn of Africa right now 
I consider one of the better-kept secrets that are there and 
look with some optimism to the standup of this command and what 
it could be accomplishing in the region, particularly with 
long-term strategic significance for much of the world there.
    One of the questions, looking at personnel issues, looking 
at the challenges that we face in Iraq, Afghanistan, Bosnia, 
Somalia, going all the way back to Grenada, for that matter, in 
the interagency world of working effectively together, I see a 
real opportunity for us to, let's say, put a lead on a lot of 
our nonkinetic assets from a least intrusive through 
information outreach, diplomacy, across to economic 
development, and finally having those other options as well-
placed deterrents on the table.
    One of the questions that comes up from time to time as we 
talk about this are barriers between the agencies, statutory 
barriers in regulation, authorization, appropriation, for the 
ability to intermingle funds, to collaborate, particularly when 
you have a relatively short time frame to put together the kind 
of package for support.
    And I was wondering if you could comment for a moment and 
really would open it up to all three, but perhaps begin with 
Ambassador Mull, on areas in the law that we can change from an 
authorizing perspective in the respective committees in 
Congress to allow this command to truly be empowered, to avoid 
many of the challenges that we faced on the ground in theater 
right now.
    Ambassador Mull. Thank you very much, Congressman Davis. As 
General Ward mentioned, this is a command under construction 
right now.
    And in our planning, from the very beginning of the 
planning process for this, when we began to sit down and 
consult with our Defense colleagues last autumn, we agreed that 
at least early on we would not envision any statutory changes 
to how U.S. military commands operate and interoperate with 
U.S. embassies in the field, that the authorities that exist 
now would remain intact.
    That said, we believe that creating this command will 
create a lot of efficiencies by putting people from the Agency 
for International Development and the State Department with 
expertise in those particular authorities and areas right there 
at the table with General Ward when he does his planning for 
his operations of the command.
    So as we stand this up and we get people staffed and 
working together, that may change. We may decide that there may 
need to be a change in the legal structure.
    But for the time being, certainly speaking on behalf of the 
State Department, we don't see any need to change the existing 
authorities we have now.
    Mr. Davis of Kentucky. Part of the reason I asked the 
question was about 6,500 people in the foreign service, for 
example, compared to seven-figure numbers in the Defense 
Department of available resources--there certainly is a 
difference in scale there.
    In many of these areas I think we have just a fraction of 
what we had in the Civil Operations and Rural Development 
Support (CORDS) program in Vietnam now in terms of our actual 
provincial reconstruction outreach.
    And this is where I come back to the question of if you 
have limited resources, the payment question could be a 
challenge. I am well aware of what happened in terms of 
standing up additional Provincial Reconstruction Team (PRT) 
support with our reinforcement that took place earlier this 
year in Iraq.
    The reason I am asking you first is I hear from the 
military all the time that the interagency is a challenge both 
from a structure, funding and authorization standpoint.
    And perhaps General Ward can comment for a second on that.
    General Ward. Thank you, Congressman Davis, for that. As 
Ambassador Mull pointed out, as we move down the road with the 
command and look at ways of being more effective in delivering 
the very fine programs that the United States of America wants 
to implement on the continent, there may be opportunities to 
come back and ask for authorization deviations that will allow 
us to do that in a more effective way.
    What I will say is that in my previous role that I played 
in many theaters, the ability of us to deliver timely and 
effective American security cooperation and American security 
assistance, regardless of its source, is important.
    And so as we move through this effort of this command and 
bringing value added to our ongoing programs, I am very 
confident that should we find a way that we can come back and 
recommend that we can do a better job, that we will come back 
to you with that, because it is something that we would be 
paying very close attention to as we implement the standup of 
the command.
    Secretary Henry. Mr. Chairman, I apologize, but if I just 
might add--because we have asked for new authorities, and I 
just would like you to be aware of them.
    We have asked for a global commanders emergency response 
fund--gets to the issue of timeliness. Right now, that is 
limited to the theaters of Iraq and Afghanistan, and AFRICOM is 
an excellent example of where that will make a difference.
    We have also asked for increased 1206 authorities. That is 
something that sits between the Title 10 and the Title 22 
authorities where both secretaries approve them, but it is 
extremely responsive. It meets the needs and it gives the 
capability that you are asking about on how do we work those 
interagency seams.
    We think with a deputy commander--deputy to the commander 
from the State Department we will be able to work the Title 10, 
Title 22 issues for FMF specifically much better than we have 
in the past.
    But I would emphasize that those--the 1206 authorities and 
the global commander emergency response funds would be a 
critical addition to the capability here.
    Mr. Davis of Kentucky. Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman, and particularly, thank 
you for holding this hearing.
    I have concerns that we are taking too long to establish 
where the Africa Command is going to be located. I hope we get 
a resolution soon.
    I led a trip of Members through the Horn of Africa, so 
there are going to be huge issues. When you factor in Libya, 
the bridge to Spain and the impact they are having on Europe, 
when you factor in Yemen and the other countries in and around 
the Horn of Africa, intelligence is going to have, I think, a 
huge part of the role that will be played by this new command.
    So I hope we have a decision soon on where it is going to 
be located.
    I have a couple of questions. The first one deals with the 
establishment of the J-2 in the Africa Command. How will that 
change our intelligence coverage in the region?
    Specifically, how will the Africa Command's J-2 differ from 
the current command's--European Command--J-2?
    And will there be--I am assuming there is going to have to 
be, but will there be emphasis on long-term issues? One of the 
big concerns that we have, and it was verified when we took the 
trip into the Horn of Africa, is the rise of fundamentalism in 
the region, particularly in the Sahel region.
    So will there be more emphasis on those kinds of issues as 
the new command stands up?
    And then the last thing I would like for you to address is 
how will the Africa Command affect counterterrorism operations 
which have been ongoing as we look at and talk about issues 
like the pirates off of the coast of Somalia, the interaction 
between Ethiopia and Kenya, in that vital region?
    That is why I am hoping we make a decision quickly on where 
that command is going to be located. So if you can cover those 
areas, I would appreciate it.
    Secretary Henry. Let me just start, and I know that General 
Ward will have more specifics for you.
    First of all, we understand your impatience on where the 
command is going to be, and each and every one of us, as we 
have approached the problem, that is the first thing we ask. 
But as we have gone into this and looked at it deeper and 
deeper, the key is how does the command operate, not where it 
is.
    And the worst thing we think we could do is rush into a 
bricks-and-mortar solution that has a lot of military 
construction (MILCON) associated to it and will lack 
adaptability.
    And rather, we have tried to create a command and a command 
structure that will be able to be out there and interfacing and 
gathering information that you are concerned about, not just at 
one specific place, but across the entire area of 
responsibility.
    And we think that we have come up with a tiered innovative 
structure that will allow us to do that. Part of that tier has 
been a concept of reach back to individuals who do not need to 
be on the continent.
    And for purposes not necessarily for collection but of 
intelligence analysis, it is not necessarily essential that the 
analysts be at the spot that he is looking at.
    And so initially a part of the intelligence personnel are 
going to be currently where they are within the--Jack 
Molesworth, as part of where the European Command intelligence 
is, and they will be separated off and be the AFRICOM cell that 
will respond directly to General Ward.
    And he will also have a staff at his headquarters 
supporting him. But I would like to emphasize that not only do 
we need intelligence in Africa, but we also need information.
    And so we will be putting probably a much greater reliance 
on open source information and being able to use that, and 
interfaces through the diplomatic reporting.
    So we plan to take a 360-degree approach in getting 
information to the commander so that he can make the best 
decisions.
    General Ward. Mr. Chairman, you mentioned the J-2. One of 
the things that will cause this command to be different from 
the existing combatant commands is that our J-2 is the Director 
of Intelligence and Knowledge Development.
    We know that we have to integrate in a very substantial way 
all sources of intelligence--the traditional sources as you are 
so familiar with; as the under secretary pointed out, also the 
open source piece and how we will interact with other partners 
on the continent, many of whom, although have very good access 
to information, are not in typical classified channels.
    But we know the importance of all of that, and 
understanding what is happening on the continent from a 
strategic level, quite frankly, down to the tactical level.
    This command and its intelligence and knowledge development 
construct will have to be able to look at strategic-level 
intelligence, through the operational level, down to the 
tactical level as our personnel are out doing what they do to 
help increase the capacity of our partner nations.
    And we understand the role that we also have to ensure that 
what we are doing as a part of the Operation Enduring Freedom-
Trans Sahel, as a part of the Trans-Sahara Counterterrorism 
Partnership (TSCP) program in the north, in the Horn of Africa 
with what is being done by the Combined Joint Task Force 
(CJTF)-Horn of Africa, understanding those programs, 
integrating those efforts, and ensuring that we can provide the 
type of overarching intelligence infrastructure that will be 
able to fuse intelligence, understand the situation, and then 
as appropriate do something with it.
    So we will look to build a command to, in fact, do those 
very things.
    The Chairman. I thank the gentleman.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    General Ward, it is great to see you again. I think it has 
been some 15 years since we had a chance to chat when we were 
much younger and serving together, in fact, in the Horn of 
Africa.
    In that operation, Operation Restore Hope (ORH), that was 
under Central Command. In this new construct, were that same 
operation to take place with the existence of AFRICOM, it would 
be the same militarily except it would fall under your command 
rather than Central Command, is that correct?
    General Ward. That is correct, Congressman.
    Mr. Kline. And with the current training operations that 
are going on across Africa, many of which are being conducted 
by forces from Special Operations Command (SOC), that is now 
under the overwatch, I suppose, mostly of EUCOM.
    That will continue just as it is today, except under 
AFRICOM, is that correct?
    General Ward. Correct.
    Mr. Kline. Just a couple of--I assumed that was the case. I 
just wanted to make sure that was the case.
    I am constantly concerned about--and this is probably more 
addressed to Secretary Henry. When you look at the number of 
combatant commands--I was looking at a number yesterday.
    Our combatant commands consume something over 15,000 people 
and over $3 billion a year to run these combatant commands. And 
now we are creating a new one. So a number of my colleagues 
have already addressed this issue, and I don't want to dwell on 
it.
    But what this is going to cost is important. We are using 
up people. And you have explained that we are going to, at 
least initially, draw from joint billets.
    That implies that we have some spare joint billets out 
there, and I am not sure that is the case. So in the long term, 
the size of this command does matter.
    And then to the point that my friend and colleague from 
Texas Chairman Reyes made, where the headquarters exist 
probably does matter. I don't share his urgency in getting an 
answer to that, but this is a question for anybody who would 
like to address it.
    Can AFRICOM work effectively from Stuttgart, from Europe 
today, and could it next year and the year after that? In other 
words, in terms of being able to provide the command structure 
and the overwatch and the things that are necessary, can it 
function effectively out of Europe? Anybody.
    Secretary Henry. Yes, it can function effectively. Will it 
be at its optimum level? We definitely think not, and we think 
to get the most effectiveness out of it, it is important that 
the commander and his key staff are on the continent.
    Right now, Central Command functions out of Tampa----
    Mr. Kline. Exactly.
    Secretary Henry [continuing]. Pacific Command out of 
Hawaii, and Southern Command out of Miami. So it is not 
necessary, but----
    Mr. Kline. Well, let me interrupt, then, just for a minute. 
Then why do we feel this urgency to rush into the continent, 
when it has been already presented that right now there is 
nobody eagerly seeking our presence there, when we--as you 
pointed out--we are working out of Tampa, we are working out of 
Hawaii.
    That is a long way from anywhere in the Pacific Command 
where we might employ forces. Why do we feel this rush to put 
something on the ground on the continent?
    Secretary Henry. Well, I guess there are two things I would 
take exception with. One is that there is not people that want 
us there. There are a number of countries that have come 
forward, one publicly, several privately, that have asked us to 
consider them.
    And we don't feel we want for places, if we were to put in 
a headquarters, on where that would be.
    The second thing is I would take issue with the fact that 
we are rushing. Actually, we have been very deliberate. We have 
been thinking about this over a year, and we still are telling 
you that we are out gathering facts. We are doing it in a 
deliberative fashion.
    One thing that we think will be somewhat--I don't want to 
say special, but this command will be a leader in is 
adaptability and the ability to change to the environmental 
circumstances.
    And as we come forward and think about the command 
structure and its placement, that is one of the considerations 
we want to have, is how will this be able to adapt to security 
situations on the continent.
    And we don't want to get locked into some place that would 
cause difficulty later on. So I would just take issue that we 
are rushing into it.
    It is the goal of the Secretary to have a decision on where 
the physical and geographical location of the different 
elements of the command will be as it initially comes on the 
continent, not necessarily the final disposition, by the end of 
this fiscal year.
    To address your issue on manpower and manning, another 
thing that is somewhat unique about AFRICOM is this is the 
first time we have stood up a command that hasn't been in the 
shadow of some sort of emergency or conflict.
    And we are doing it in an anticipatory fashion. And in so 
doing, it has caused us to go back and look at the manning 
across all of the combatant commands.
    And we are in the process of taking the study and 
understanding of how we rationalize manning for combatant 
commands, what are critical functions, which things can be 
replicated in different commands and what things need to be 
unique in different commands.
    And that will all be folded into how the long-term manning 
for AFRICOM is handled.
    Mr. Kline. Okay. Thank you very much.
    I see my time is about to expire, and ever in my continuous 
effort to set the example for my colleagues, I will yield back.
    The Chairman. Thank you very much.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for your service. I can see Ambassador Mull 
is looking around. There we go.
    I think it was 10 years ago or maybe even more when General 
Joulwan was here--and I had worked in Africa a couple times as 
a doctor in the olden days, 6 months in Sierra Leone and 3 
months as part of the Ethiopian refugee relief in 1985.
    And so I asked him if he would benefit from more resources. 
We would like to be able to do more as far as work in Africa. 
And he was almost pleading for additional help.
    And General James Jones has made very eloquent statements 
here at some length about the need to be more involved in 
Africa.
    So I think what you are doing is very important. I am glad 
that you all are being very sensitive to dealing with some of 
the concerns expressed by some of the nations down there. I 
mean, the whole point of this is to help us and not to hurt us.
    I will have to say--this is just one person's opinion--my 
own view is that our foreign policy for the last several years 
has been far too dependent on military, and to the exclusion of 
the diplomatic corps.
    I would think that perhaps some of that apprehension you 
are hearing is in view of what has gone on for the last several 
years. My own view is that we have underfunded the State 
Department.
    We should have more redundancy in the State Department so 
you could respond to more things around the world. But 
hopefully we will deal with those issues.
    Ambassador Mull, I wanted to ask you a question, if I 
might, on a somewhat related topic, but when the town meeting 
at the State Department was held a couple of weeks ago, one of 
the concerns that was expressed was inadequacy of treatment of 
health care--specifically, mental health conditions--from 
people who had served in Iraq as State Department employees.
    Our Oversight and Investigation Subcommittee has been 
looking at these issues of why people from the civilian side 
are less inclined to go to Iraq. And it concerned me that that 
was expressed openly, that this person thought that she had 
received inadequate mental health care.
    What is your feeling on that? You responded to the other 
question. Perhaps you can enlighten us about the status of 
mental health services for employees when they return from 
Iraq.
    Ambassador Mull. Thank you, Congressman Snyder, for the 
opportunity to comment on that issue. My friend and colleague, 
Ambassador Harry Thomas, recently was appointed as the Director 
of Human Resources at the State Department and Director General 
of the Foreign Service, and he has set as one of his top 
priorities addressing those concerns.
    It is true it has been a long time since American Foreign 
Service officers have been serving in war zones, as they have 
in the past five years.
    And I am not an expert. I am not responsible for this area 
within the State Department. But I think it is probably fair to 
say that our institutional capability to respond to the unique 
needs of Foreign Service officers who serve in combat zones 
perhaps are not all that they could have been.
    I know Ambassador Thomas is working very hard to look at 
what institutions we have in place and has already made some 
progress in coming up with some plans to make sure that not 
only do we take care of our own when they come back, not only 
take care of any physical medical problems they have but any 
mental or emotional problems as well.
    And not just for the employee, but also to make sure that 
we are taking care of their families as well.
    Dr. Snyder. So what you are saying today is that it is 
still a work in progress in terms----
    Ambassador Mull. Yes.
    Dr. Snyder [continuing]. That person's public comment that 
was picked up by the press was not an inaccurate description of 
the current state of things, that there is a need for better 
resources for State Department personnel when they return from 
a war zone.
    Is that what you are saying, that it is still a work in 
progress?
    Ambassador Mull. Yes.
    Dr. Snyder. Thank you.
    And one specific question, if I might ask Secretary Henry, 
would you--if I might--and tell me if it is inappropriate to 
ask today.
    Would you make any comments you would like to make on the 
status of the relationship currently and the likelihood of 
military hostilities between Eritrea and Ethiopia and what the 
posture of the United States is with regard to that potential 
shooting war again? Thank you.
    Secretary Henry. Yes, I will take it to a certain degree 
and then let Ambassador Mull also take it. The State Department 
does have the lead in foreign policy in our government.
    But we are monitoring it. We have concerns as we have seen 
the buildup of forces. Here lately we have seen a backing away 
of that which we find encouraging. But we don't think that it 
will be to the benefit of either party or the United States if 
conflict were to break out there.
    Ambassador Mull. I agree with the Under Secretary. It is 
obviously a critical fault line in African security. The 
potential conflict between these two states has deep historic 
roots.
    We have been working very energetically through diplomatic 
channels to try and prevent it from happening, and we continue 
to monitor it very closely.
    The Chairman. I thank the gentleman.
    Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you. I know the issue of 
the command headquarters, gentlemen, has been discussed a good 
bit this morning.
    I would like to just specifically ask you, in regard to the 
temporary headquarters that I guess is shared jointly with 
European Command in Stuttgart, how much investment have we 
already made there in regard to bricks and mortar and security 
and infrastructure?
    And the question I think from Colonel Kline and maybe some 
others and the response indicating that a lot of our commands 
are not necessarily located in a central area of the particular 
command--so if you can address that.
    And then the other thing that hasn't been asked--I notice 
that Egypt, which is very much a part of the African continent, 
is not part of this new Africa Command.
    Maybe it would seem obvious why it isn't, but it is not 
totally obvious to me, certainly not from a geographic 
perspective. You would think that clearly it should be part of 
this new command.
    And maybe we can start with that specific question, since 
the other has already been touched on to some extent.
    And I think I would like to start with General Ward in 
regard to that question, Commander, if you could respond to 
that.
    General Ward. Congressman Gingrey, I think the question of 
Egypt is more appropriately dealt with by the Under Secretary 
here, so I will leave that to him with respect to the unified 
command plan as currently set.
    With regards to the headquarters, the interim headquarters 
in Stuttgart--Stuttgart, as a part of our current set, is an 
enduring location for our Department of Defense posture.
    As the decision was taken to stand up AFRICOM there in 
Stuttgart, it takes advantage of several things. First, it 
takes advantage of the physical location of EUCOM currently 
dealing with Africa quite a bit, so as many of those personnel 
transition to AFRICOM, any costs associated with moving them is 
taken away.
    Looking at Kelly Barracks where the current headquarters is 
established for AFRICOM--again, already in place, 
infrastructure already there, set, no additional bricks and 
mortar required. There are costs incurred with respect to 
bringing----
    Dr. Gingrey. General, that satisfies me on that question, 
and I thank you for that response.
    Let's go directly to Secretary Henry in regard to the issue 
of Egypt.
    Secretary Henry. Egypt took some thought, a lot of 
consultation with the current combatant commanders. We have had 
consultations with the Egyptians.
    And we, for reasons of a large foreign assistance and 
security assistance account that we currently have with Egypt--
the administrative processes are already set up through Central 
Command.
    And plus, you know, Egypt does look toward the Middle East, 
and has large and significant involvements there. We felt for 
administrative purposes it would be best to keep Egypt in 
Central Command.
    But that being said, any activity that we are doing on a 
multinational basis that Egypt is invited to attend--I am sure 
that when General Ward has his different meetings and that that 
their representatives will be invited to attend.
    And so for purposes from an operational perspective, the 
administrative aspect on our part, our military organization, 
that Egypt will be invited in to participate to the same degree 
that any other of the other 52 countries on the continent will 
be.
    And they are a member of the African Union, and we plan on 
treating them as such.
    Dr. Gingrey. Absolutely. And, Mr. Secretary--or maybe, 
Ambassador Mull, you may want to comment on this as well in the 
little bit of time I have got left--it seems to me that it 
could lead to some confusion.
    And that is there a possibility that somewhere down the 
line, after we achieve victory in the Middle East in Operation 
Iraqi Freedom specifically--that at some future date we may 
want to take another look at that and include Egypt as part of 
AFRICOM?
    Secretary Henry. The unified command plan is actually under 
continuous review. It comes up for a formal review every two 
years. And we are always looking at seam issues. And this is 
what we refer to as a seam.
    And we have previously had difficult seams on the African 
continent. This is the one on the continent that remains, and 
there are reasons to go either way, but we do continue to look 
at it, though.
    Dr. Gingrey. Well, it looks like some of these political 
gerrymandered maps that we have for congressional districts. So 
hopefully at some point we can clarify that. Thank you.
    And I yield back.
    Mr. Taylor [presiding]. The chair recognizes the 
gentlewoman from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being before us today and for 
your service to our country.
    I had the opportunity last year between Christmas and New 
Year's to go to Darfur and Sudan and Chad and Djibouti to visit 
troops and to see what was going on. And I do believe that we 
need to concentrate more time, obviously, on Africa and that 
continent.
    So I do believe that something like an African Command 
would be important, and I think it would be important to put it 
in Africa someplace. I don't know where that is. I guess that 
is one of the things we are trying to figure out.
    I also represent Orange County, which has one of the 
largest refugee resettlement programs from all different types 
of conflicts, so you can imagine that our current resettlement 
happens to be those people from that continent, quite a few 
conflicts having gone over the last few years and continuing 
there.
    My question really deals with this whole issue of the fact 
that since we have had this war on terrorism and we have--it 
seems to me that the complaints that I have received from so 
many different places around the world--not just Africa or 
Europe or anyplace, but from our embassies around the world is 
that in many cases, we now have--because of the issue of 
terrorism, we have so many resources going into and have more 
military people within the umbrella of our embassy missions in 
countries.
    And some have even stated that there seems to be more 
military people than even State Department and Commerce 
Department and other people that we have traditionally had 
within the embassy enclaves, if you will.
    And to some, in particular at the State Department, there 
seems to be a faltering in the sense that maybe we are using 
too many military assets. Certainly, there is more money coming 
in from that direction, and so they feel this emphasis coming 
in from the military where they think maybe that might be 
hindering what they are doing.
    So my question is when we are looking at this African 
Command, it is really the first model of how do we put in some 
of this other infrastructure from the State Department.
    My question is how will we ensure that, in fact, we do 
those stabilization and regrouping, if you will, in these 
countries more to the extent of peacetime sorts of activities 
rather than another emphasis and another dumping of money into 
the military side of things?
    And I would ask both the General and the Ambassador to 
comment on--you know, it is important we stand this up, and it 
is important to have that model of both working together.
    But how do we really move away from such a military 
presence in countries versus a more nurturing sort of 
relationship that we really need in Africa?
    Ambassador Mull. I will be happy to take that question 
first, Congresswoman Sanchez. Thank you very much. You raise a 
very good question.
    And as a diplomat who has spent much of the last 10 years 
myself working overseas, I agree with you that we have to be 
concerned that we not convey to our partners around the world 
that we have a militarized foreign policy.
    And so I think you are right to raise the concern. But I 
don't think we have to worry about it so much in that when we 
look at the total amount of assistance that we provide to 
Africa, it is of an overwhelming nonmilitary nature in terms of 
providing economic development funds, humanitarian assistance, 
assistance to infrastructure building, to building democratic 
society, civil society.
    In many of these countries, the amount of military 
assistance or military-oriented assistance that we provide is 
really just a tiny fraction.
    And I think that will continue even with the standup of 
AFRICOM because the problems that we face in Africa are 
overwhelmingly nonmilitary in nature.
    That said, the military plays a very important role in 
these countries in providing stability and responding to fast-
moving humanitarian crises.
    And we hope that through AFRICOM we will be able to 
coordinate on our own side of the table, too, on the U.S. 
Government side, in making sure that AID and the State 
Department and the various resources that the military has to 
bring to the table are all coordinated in responding to it.
    I would note that the White House did designate the State 
Department as having the lead within our government in 
responding to stabilization and reconstruction activities.
    Secretary Rice has a special coordinator, Ambassador John 
Herbst, who is in charge of those efforts. And that will ensure 
that our response to these emerging situations is not primarily 
military in nature.
    Although the military does play a very, very important 
part, nevertheless the State Department will be in the lead.
    Ms. Sanchez. If I could just give a chance to the General 
to comment on that.
    Mr. Reyes [presiding]. Very quickly, General.
    General Ward. The role of the United States military, 
ma'am, is an important role because what we do as we interact 
with militaries, and given the point that was made by the 
ambassador, the role that militaries play in those societies--
we are able to interact.
    We are able to be a force for causing their work to be more 
reflective of a situation that causes them to be seen as 
protectors of their people, as opposed to oppressors.
    And so that example, that side by side--you take the 
example today of our African Partnership Station, where we have 
a platform that is offshore, with ship riders--that is, 
representatives from other African countries who come aboard, 
get instructions on how to be better maintainers of equipment, 
better sharers of information, and in so doing, doing things 
that help enhance their society.
    That is the role that we play in these emerging and 
maturing democracies that causes the military to be seen as a 
force for a positive development, as opposed to otherwise. And 
that is our role, and I think it does not supplant the role of 
the other agencies. It just complements those additional 
efforts.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Reyes. I thank the gentlelady.
    And I just advise the members there are going to be four 
votes. We should be able to get through probably two members.
    Mr. Thornberry, you are up next.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Secretary Henry, let me just clarify. You talked about some 
of the intelligence assets, followed to Chairman Reyes' 
question, coming from EUCOM--Molesworth and so forth.
    Are intelligence assets being transferred from CENTCOM as 
well?
    Secretary Henry. I am not aware of any specific ones, but 
let me take that for the record to be able to get back to you. 
Obviously, we do have the activities going on in the Horn of 
Africa.
    [The information referred to was not available at the time 
of printing.]
    I know those responsibilities and resources will be 
transferred over. We haven't made that transfer of the Horn of 
Africa to the sub-unified command of Africa yet, so those 
haven't taken place yet, and I will have to get back to you on 
exactly what the plan is for doing that.
    Mr. Thornberry. Well, it obviously may be worth attention. 
If you have got intelligence analysts expert in that region, 
and now it is going to be under General Ward, obviously they 
need to go----
    Secretary Henry. Yes, and I would differentiate between 
those at the command level of Central Command and the 
intelligence assets and that that we are using both at Joint 
Task Force Horn of Africa and then those that are part of 
Special Operations Forces, too.
    Mr. Thornberry. Of course.
    General Ward, it seems to me you have a tremendous 
opportunity building this command from the ground up without a 
crisis. Secretary Ryan said the watchword was going to be 
adaptability.
    You have had numbers of questions about the interagency 
piece, how this can be an example for others about the agencies 
actually working together.
    But the other side of it is if you are successful in really 
leading the way on interagency, you are going to meet 
resistance. I mean, one of two things is going to happen.
    You are either really going to do it and the folks whose 
interests are threatened are going to complain about it and try 
to stop it, or it is going to be lip service and there won't 
really be change at all.
    I guess what I am most curious about is how are you going 
to overcome that resistance when it comes. Because I believe 
when there is real change there is inevitably resistance from 
the institutional interests that are threatened by that.
    General Ward. Thank you, Congressman. I think we are going 
to overcome it--by demonstrating on the ground through the 
execution of programs that we will bring value added.
    And right now, we have examples of that. We have the work 
that is going on, quite frankly, in OEF-TS, in CJTF-Horn of 
Africa, where we brought together an interagency, a 
multidisciplinary team of folk to cause results to be enhanced 
because of our collective efforts, as opposed to doing it in 
separate, independent stovepipe ways.
    The more that we do, sir, the more all will be seeing that 
this construct works to their advantage as well, and being a 
part of that construct enhances the work that they do.
    The Africans will see it, and I believe our international 
and interagency partners likewise will see that, that it makes 
sense.
    Mr. Thornberry. Well, I think you are right. It was 
suggested to me last week, for example--Center for Strategic 
and International Studies (CSIS) issued a report that called 
for a major global health initiative.
    And it was suggested to me this would be an excellent 
opportunity for AFRICOM to take that in a supporting fashion, 
but to prove that this is not a militarization or to dispel all 
the myths that you laid out at the beginning, that that could 
be an opportunity to prove it with more than words.
    But I hope, as you try to do that, that you will be willing 
and able to go however high you need to go, including coming to 
this committee, to overcome the obstacles to make you 
effective.
    I yield back. Thank you.
    The Chairman [presiding]. I thank the gentleman.
    We have five votes on the floor. I believe we have time for 
Ms. Davis, and then we will adjourn.
    And, gentlemen, we will ask you to remain until we come 
back.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here and certainly for 
your service as well.
    I am going to try and move through this really quickly. I 
appreciate the comments of my colleague Mr. Thornberry, because 
I, too, have some concerns about the interagency focus and how 
we do that.
    I did have an opportunity to be on the continent in August. 
And we talk a lot about the vision for the African Command.
    And one of the things I did hear, and I guess I heard this 
from men and women serving on the ground, is that there was so 
much confusion for them for what that might be, because there 
were multiple commands that were essentially giving orders, and 
they seemed to be sometimes at odds.
    So I think, you know, that is something that obviously is a 
work in progress in some ways. And I hope that we can work 
through that.
    My other question really is how we bring in not just the 
State Department and the Pentagon, essentially, but how we 
expand that to other tools of government. We know, certainly, 
in Iraq and Afghanistan, whether it is commerce, whether it is 
agriculture, but those also need to be important tools as well.
    And where I think would be important to demonstrate is how 
decisions that are made might well go--you know, this is the 
thing we need, but we are going to give the tools to USAID, 
because they can do that better than the military can do it.
    How do you see that process working so that this is really 
a shared pool of resources, as opposed to one that seems to be 
more in the hands of one department or another?
    Secretary Henry. Again, I am concerned maybe that we are 
not getting our message across--$9 billion the U.S. Government 
invests in Africa, 3 percent of that, $250 million, is in DOD. 
Ninety-seven percent of it is in other places where they can do 
a better job.
    What AFRICOM is about is understanding that many of those 
programs--part of their success has to do with the security 
aspect of it. It is very few programs that are going to be 
successful in trying to build the civil society that only go to 
one pillar of what that civil society is.
    And that is what the recognition within AFRICOM is, is it 
is going to take a multidisciplinary approach to do it. And to 
date, when it comes to the military and the stability and 
security aspect of it, the DOD has been involved episodically, 
when there has been a crisis or when there has been an 
exercise.
    And now we are making the investment of putting one of our 
best four-star commanders on the continent with a staff that 
can be sustained and involved but approach those problems from 
an interagency, integrated fashion, of which the majority of 
the time DOD, within the U.S. Government, will be in a 
supporting role, and almost all the time the U.S. Government 
will be in a supporting role to African endeavors.
    Mrs. Davis of California. Thank you, Mr. Secretary, I 
appreciate that. What I am reflecting somewhat is the 
perception of people that were on the ground and their feelings 
about this. And so I think that it is important to try and make 
clear--I appreciate that----
    Secretary Henry. And we will continue. Our interactions 
have been with the ambassadors, and not other members of the 
staff, as we have gone to stand up AFRICOM.
    Mrs. Davis of California. A quick question--I just want to 
make sure and get this in--in terms of personnel, because we 
have said that, in fact, you are going to be pulling from other 
resources in some cases, and that seems like an appropriate 
thing to do.
    But the kinds of resources, I think, that you need are in 
health care, perhaps, in special ops, and we know that we are 
struggling in those areas in other places. And so I would like 
to know how we are doing that.
    A second question is whether or not we need to expand 
services at Stuttgart or, again, whether--if we do locate a 
command--however you want to call it--on the continent, what 
arrangements would be made for people to have families 
accompanying them in that effort?
    And especially, I think, in the Stuttgart situation, are we 
able to do that now? And will we be able to do it as well for 
State Department officials?
    Secretary Henry. In regards to the Stuttgart, we are making 
some improvements on an interim basis since that is not a 
permanent headquarters.
    In regards to accompanied tours, State Department does that 
very successfully already on the continent. We are looking at 
different models where we can work with State Department to 
have commonality of services.
    As we build our regional integration teams, their specific 
role with the local embassy, we are looking at different models 
where we can get economies of scale.
    So those are all part of the process that we are looking at 
now.
    Mrs. Davis of California. And health officials to be part 
of this mission? Where do you see those?
    Secretary Henry. Yes. There will be an element of that. To 
what degree depends on which programs are there, which agency 
has the leadership on it, and how it is best for us to 
interface it.
    We are sensitive to this issue of DOD coming in and 
overwhelming either other programs within the U.S. Government 
or, in some cases, the African host state and their security 
capabilities.
    And so one of the feedback that we have gotten as we have 
gone around is don't overwhelm us, and the lower the profile, 
probably the more effective you will be. And that has a lot to 
do with what our approach is.
    The Chairman. I thank the gentlelady.
    We will return after the votes, and we appreciate your 
being with us when we return. Thank you.
    [Recess.]
    Ms. Castor [presiding]. The committee will return to order.
    I am pleased to recognize Mr. Wilson for questions.
    Mr. Wilson. Thank you, Madam Chairman.
    And thank all of you for being here today. And in lieu of 
questions, I want to extend a warm and cordial invitation for 
General Ward to move to Charleston, South Carolina.
    And this is on behalf of my two colleagues, Congressman 
Henry Brown, Congressman Jim Clyburn, who both represent 
Charleston. I was born in the holy city of Charleston. It is a 
wonderful place to be.
    It would be a wonderful site for the African Command. In 
fact, I have presented you an invitation from the Charleston 
Metro Chamber of Commerce inviting the African Command to be 
located in Charleston.
    And there is so much in common that we have, particularly 
with West Africa, that would make persons feel right at home. 
And indeed, I have had the privilege of visiting in Sudan, and 
Kenya, and South Africa, and Ghana, and Liberia and Cape Verde.
    And as I was visiting with people in those countries, I 
found such a kinship with South Carolina, but Charleston and 
the low country in particular.
    And I would want you to be aware that the Naval Weapons 
Station Charleston would be an ideal location. It has ample 
acreage, a secure military facility. It is home of Space and 
Naval Systems Command (SPAWAR) Charleston, which can provide 
all the technology needed for the command's security and 
communications systems.
    Additionally, it has already been cited that there is the 
precedence of commands located outside of the area that they 
cover. Particularly we have the Southern Command in Miami, the 
Central Command in Tampa, the U.S. Pacific Command (PACOM) in 
Honolulu.
    Charleston, again, has such a strong relationship with the 
African continent. And specifically where it could be so 
beneficial, Charleston is the transportation hub for the United 
States Transportation Command as well as the primary seaport 
for container cargo between the United States and the south 
Atlantic.
    The Port of Charleston ranks number one for container 
traffic, handling approximately 50 percent of all container 
traffic to and from the south Atlantic.
    Charleston Air Force Base provides nearly all of the 
strategic airlift support for Africa for our government, to 
include embassy support.
    SPAWAR Charleston is the leading provider for command and 
control and communication for European Command's (EUCOM) role 
in Africa. SPAWAR also supports embassy security operations and 
could stand up an AFRICOM command center at SPAWAR Charleston 
in a matter of days.
    Other relationships include the greater Charleston medical 
community, which is a world-class medical community for 
training and education, as well as patient support.
    Additionally, most of the rapid deployment forces which 
would support an African operation to include special 
operations are in the southeastern part of the United States 
surrounding Charleston.
    Charleston is the hub for all military transportation, 
airlift, sealift and prepositioning. Also, the cultural 
linkages between Africa, Charleston and South Carolina have 
existed for centuries, and this could bring enormous 
development and cultural opportunities for both Africa and the 
United States.
    In fact, a few minutes ago I was speaking with Congressman 
Clyburn and he and I, both of Charleston background, were 
commenting how the local dialect of Gullah, which is spoken in 
South Carolina, actually originated in West Africa.
    Additionally, the AME Church, the African Methodist 
Episcopal Church of South Carolina, is partnered with the AME 
Church of Liberia, and I have visited the AME University of 
Monrovia. And so there is a close connection.
    And so I want to make it perfectly clear that Charleston 
and all of South Carolina would welcome the Africa Command, 
that indeed visiting dignitaries of Africa and persons assigned 
would enjoy living and visiting in America's most historic 
city.
    The invitation is clear. It is wide open. You are welcome 
to Charleston, South Carolina for Africa Command.
    I yield the balance of my time.
    Ms. Castor. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    And I absolutely agree with my colleague. I would like to 
see it anywhere except on the continent of Africa, and so that 
is my conversation here today.
    I am very concerned about actually having a physical 
presence, as you have stated, because I do believe that while 
it looks reasonable to us, the rest of the world is not going 
to accept our reasons for it.
    And so I wanted to ask, what are the top three reasons for 
actually physically placing this on the continent somewhere? 
And right now, there is one country, I believe, Liberia, that 
has expressed an interest, right?
    Secretary Henry. Publicly.
    Ms. Shea-Porter. Okay, publicly.
    Secretary Henry. One country publicly has. Several have 
privately.
    Ms. Shea-Porter. Well, it is pretty important that they can 
be public and not private. Whatever people say privately does 
not count because I think that the private ones are reflecting 
the will and the attitude of their own people, which is that 
they don't want it.
    So I understand all the reasons for paying attention to the 
continent of Africa. I think it is a wise idea. I do not 
understand why we need to be there physically. So could you 
please tell me, anybody, the top three reasons?
    Secretary Henry. I will be glad to give you the top three 
that I have been associated with. The first is actually, 
contrary to your feelings, as we have gone around and talked to 
leaders of the different African countries, they said it would 
be important to have the commander on the continent.
    It would show a sense of commitment, a sense of equality, 
that we are treating them as equals, rather than a sense of 
colonialism, which is something that they are sensitive to. So 
that is the first reason.
    The second one is we think that we can do a more effective 
job of having the commander, his key staff members, and those 
that interface with the Africans to be there and to be living 
in the environment.
    They will have more empathy for the type of problems and 
issues that they are going to be faced with rather than if they 
are displaced.
    And the third one is while we have done it in four 
different locations, had the combatant command displaced, we 
have found that is not the most effective way to do it. And 
given the opportunity to go back and re-look at those, we might 
not have made the same decision that we originally made.
    So for those three reasons, that is--
    Ms. Shea-Porter. By that thinking, though, we probably 
should also move our other centers of command, right, because 
we have one in Hawaii instead of actually in any of the Pacific 
nations, other nations.
    So has anybody considered how this might look to the rest 
of the world, considering our difficulties right now in the 
Middle East and our inability to convince people that our 
motives, while good--you know, we are having trouble getting 
that across.
    Secretary Henry. Yes, Congresswoman, we have. And that has 
been a subject of consultations both with multinational 
organizations, extensive consultations in Europe to get the 
non-African opinion.
    And all of them applaud not only standing up AFRICOM but 
having a presence on the continent.
    Ms. Shea-Porter. All of them.
    Secretary Henry. Yes.
    Ms. Shea-Porter. Okay.
    Secretary Henry. Of the non-African countries that we have 
consulted.
    Ms. Shea-Porter. Okay. Would you be able to get that list 
to me so that I could also look at that? I was surprised to 
hear my colleague earlier talk about the resistance from some 
about having us physically there.
    We have to look at the appearances of it.
    Secretary Henry. We will be glad to share with you those 
in--of the Europeans, and that--there is not an issue.
    With some of the African countries, though, they gave us 
that information in confidentiality, so if we were to send it 
up here, it would have to be currently on a classified basis.
    Ms. Shea-Porter. And again, I am concerned that they don't 
feel they can speak publicly. It says that their nation or they 
suspect that their nation's people would not support that also, 
if they cannot speak publicly about this.
    Secretary Henry. That is one issue. The other issue is one 
of timing and when they think it would be appropriate to come 
forward on that.
    Ms. Shea-Porter. Okay. And my other question is exactly how 
many people are you envisioning there. I heard earlier, and 
maybe I didn't hear right, but how many people would you think 
would be wherever we wind up building?
    And how many would be military and how many would be State 
Department?
    Secretary Henry. We don't have the exact numbers on the mix 
because that is something we are still determining.
    The command structure, again, being sensitive to what 
Africans have told us--they said it is important to be there, 
but it is also important to be low profile.
    So currently the thinking is that there would be a command 
hub where the commander and members of his immediate staff 
would be, and then there would be five regional integration 
teams dispersed throughout the continent.
    And then there will be a presence in approximately 26 of 
the embassies, too, so it is a very dispersed, low-profile 
presence that we are trying to achieve for the very reasons 
that you are concerned with, desire by the Africans to have us 
there, to have a commander there, but also not to have too high 
of a profile.
    Ms. Shea-Porter. Is there a reason we can't get this done 
with our embassies there right now, that we can't have that 
face-to-face contact that you are talking about?
    Is there some reason we can't utilize our embassies and our 
embassy personnel and actually have----
    Secretary Henry. We definitely are now and we will continue 
to do that in the future. That will not meet all the needs, 
though, of a command staff for a unified command.
    Ms. Shea-Porter. And the last question is do you have any 
idea what this would cost annually?
    Secretary Henry. We are looking at the cost. It will be 
part--the cost will be reapportioned between other combatant 
command activities we are doing now, so the net cost to the 
taxpayer is zero.
    Ms. Shea-Porter. Oh, let us go back over that. The net cost 
to the taxpayer is zero. Do you have to build something there?
    Secretary Henry. Yes, we do have to build something. We 
have to build something for military construction. Then we will 
delay----
    Ms. Shea-Porter. Okay, so there is cost.
    Secretary Henry. We will delay military construction other 
places, so we would re-prioritize this higher than where those 
dollars were going to be spent previously.
    Ms. Shea-Porter. Okay, but there is cost. Any time we build 
anything, whether it is good or bad or whatever, we are paying 
for it.
    Secretary Henry. They are not paying more to the Defense 
Department accounts to have this capability.
    Ms. Shea-Porter. So you are deferring, is what you are 
saying. Okay. But do we know what your annual budget would be? 
Do you have any--how far along are you? That is what I am 
trying to figure out. How far are you along in this planning?
    You have used terms like fully operational by, and, you 
know, I am a little surprised to hear you are so far along. So 
do you have a budget?
    Secretary Henry. We have a budget for the current year, and 
during this year we are going to be building what we refer to 
as a program, a five-year look at what the costs are.
    Ms. Shea-Porter. And what would that be?
    Secretary Henry. Do you have the dollar amount for this 
year?
    General Ward. Congresslady, those dollar amounts in the out 
years aren't known. Right now for our current operating 
profile, it is about--and I am not exactly sure, but it is 
about $75 million for just the year 2008.
    Ms. Shea-Porter. Okay, and you said we have a $9 billion a 
year aid cost, right, to the continent? Okay. All right. Thank 
you.
    I appreciate your being here to share this with us, and--I 
am sorry, one last thing. When will this be fully operational?
    Secretary Henry. It will have a fully operational 
capability, which means that it will be able to assume all the 
current missions assigned to that geographical area, on October 
1st, 2008--is when it becomes fully operational.
    That doesn't mean that it will have all the infrastructure 
or it will be in the places it is going to be, but it will be 
able to assume the mission set.
    Ms. Shea-Porter. And how long have you been planning this?
    Secretary Henry. The President made the decision on 
December 15th of last year. He announced it in February. Prior 
to taking that to the President, Secretary Rumsfeld had 
different planning activities that had been going on for, I 
don't know, a year or two prior.
    We looked at a number of different models, finally gave him 
a way that he felt comfortable with to take forward to the 
President.
    Ms. Shea-Porter. Maybe around 2004, is that what you are 
telling me, two years previous to----
    Secretary Henry. The initial thinking on this, I would say, 
was in the 2005 time frame at a very low-level conceptual 
thought process. Then in 2006 he instituted formal planning 
processes to deliver options to him.
    Ms. Shea-Porter. Okay. And again, I would like to say that 
I do think it is a good idea to pay attention to the continent 
of Africa, and I am very concerned about actual physical 
presence there.
    Thank you very much for being here.
    Ms. Castor. Thank you.
    And, gentlemen, could you take some time and describe our 
current military presence on the continent of Africa, what our 
missions are?
    And also sketch out for us, to the best of your knowledge, 
the extent of the State Department and USAID's work on the 
continent in Africa, how they work together now and how you 
would see the designation of a new command on the continent. 
How will those missions change over time?
    General Ward. The current military mission profile is being 
carried out through U.S. European Command and through U.S. 
Central Command, and specifically its Combined Joint Task 
Force-Horn of Africa most predominantly.
    U.S. Pacific Command has some limited activity in the ocean 
islands off of the east coast of Africa.
    Programs include in the northern part of Africa things 
such--the program Operation Enduring Freedom-Trans Sahara, 
which is the military element of the TSCTP, the Trans-Sahara 
Counterterrorism Partnership, which is a counterterrorism 
activity where we are partnering with nine north African 
nations, improving their military capacity to control their 
borders as they deal with the current terrorist threat that is 
there in the northern part of the continent.
    Additionally, you swing around--in the current Central 
Command area of responsibility, the Horn of Africa--the 
military efforts include counterterrorism, also include 
humanitarian as well as efforts to improve and increase the 
capacity of militaries in those Horn of Africa nations into 
central Africa to improve their military capacity and 
capability.
    In the west of Africa, the Gulf of Guinea area, our 
attempts to improve and enhance the maritime information and 
maritime safety and security element of the Gulf of Guinea are 
ongoing.
    Those efforts are being carried out through our--currently 
the naval component of U.S. European Command. And I will go 
back to say that the activity in the north of Africa is being 
carried out predominantly through the Special Operations 
Command of the U.S. European Command.
    In each case, those activities would fall under the work or 
the umbrella of the U.S. Africa Command once it is stood up. 
This notion of full operational capability implies many, many 
elements, one of which is the notion that there are certain 
things being done by other parts of the Department of Defense.
    And instead of making redundant capabilities, there may be 
instances where U.S. Africa Command will engage in a memorandum 
of agreement, a memorandum of understanding with another 
Department of Defense entity such that, you know, the work that 
would be done, as opposed to being duplicated, will be being 
done by that currently existing command construct.
    In addition to that, on the continent of Africa we are 
engaged in support of the State Department in their various 
contingency operations and training assistance programs as they 
are building the militaries of other nations to participate in 
peacekeeping programs very specifically.
    There is a support that is provided to that. There is work 
that is being done in the form of other humanitarian efforts--
again, not that would be competing with the various efforts 
going on--as an example, PEPFAR, the President's Emergency 
Program for AIDS Relief, where there is a military piece of 
that, because as we look at working with militaries in Africa, 
as they want to engage in peacekeeping operations, one of the 
constraints that has been placed on those forces by the African 
Union is that those forces be HIV/AIDS free.
    And so as we work with those militaries to cause, to the 
best that we can, them be able to produce a force that is as 
healthy as it can be, we then get involved military-to-military 
as they certainly look toward that capacity.
    There are other programs that are going on that we work on 
the continent. Many of these programs are Title 22 programs out 
of the Department of State, but they are being implemented with 
our support and with our assistance.
    Our foreign military financing, our international military 
and educational training programs, whereby we work with the 
Department of State country teams as they identify military 
members that would come back to America to receive training, 
that hopefully will go forth to them professionalizing their 
forces.
    There are additional training activities at the unit level 
where we take into account the maturing level of militaries, 
partnering them with their Noncommissioned Officer (NCO) 
professional development programs, their professional 
development programs, again causing those militaries to be seen 
within their countries as--I call it forces for good, so that 
the potential for them being seen as being oppressors of their 
people goes away and they see in a better light insofar as 
being protectors of their populations.
    So this range of programs from military-to-military 
assistance--I mentioned the State partnership program, where we 
bring in our State partners, National Guards, Reserves, working 
initially to enhance various military capabilities, from 
maintenance training to increased awareness of air domain, to 
moving on to additional areas of relationship-building--are all 
ongoing.
    And we would look to reinforce these efforts, focus these 
efforts much better, and ensure that those efforts in 
particular are efforts that are more supportive of and 
complementary to efforts being taken by other elements of our 
government in the developmental activities that they pursue.
    Ambassador Mull. Speaking on behalf of the State 
Department, Madam Chair, for many, many years, the State 
Department has aimed to pursue a policy of diplomatic 
universality in which we have posts in as many countries as 
possible in the world.
    And we currently have 50 embassies in Africa. There is only 
a small handful of countries where we do not have embassies, 
either very tiny countries or places where there are security 
concerns such as in Somalia.
    And the U.S. Agency for International Development, because 
of our extensive foreign assistance operations, has either a 
presence in each of those embassies or has regional 
responsibilities for covering those places where we might not 
have an AID mission in the country.
    Military assistance is an important part but only a very 
small fraction of the kinds of assistance that we provide. As 
General Ward mentioned, our foreign assistance budget includes 
such things as assistance for education, empowering civil 
society, economic empowerment, antipoverty programs, women's 
empowerment, helping people combat trafficking in persons, 
human rights, humanitarian assistance, and response to natural 
disasters and so forth.
    We currently coordinate the military assistance that we do 
provide. Previously, before AFRICOM was established, the 
European Command had responsibility for Africa.
    And in most of these embassies there is a Defense attache 
or a security assistance officer who, up until this point, had 
been coordinating with the European Command. Now they will 
coordinate with AFRICOM in making sure our military assistance 
is properly targeted.
    Ms. Castor. Can you tell us how many personnel of the 
Department of Defense are currently on the continent and how 
many from the State Department in embassies and through USAID?
    Secretary Henry. General Ward might correct me if I don't 
get these right, but for the Department of Defense, we have 
about 1,300 to 1,400 in the Task Force-Horn of Africa, which is 
our major presence that we have.
    We have Marine detachments at many of the embassies which 
are a handful of people. We have Defense attaches in the 
different embassies and offices of military cooperation. And 
these are individuals to a few individuals in each of the 
embassies.
    And then we have periodic activities that we do as part of 
the Trans-Sahara initiative.
    General Ward. I think that is an accurate portrayal of the 
presence. The most persistent presence is in the form of that 
element that is in the Combined Joint Task Force-Horn of Africa 
headquartered in Djibouti.
    As the under secretary pointed out, in selected embassies 
there are the Defense attaches. And we only have insofar, as 
security assistance officers, in what was the EUCOM area--that 
was only in 9 countries, and I think there are another 3 or 4 
in the CENTCOM area, so some number less than 15 security 
assistance officers.
    And each of those officers would have anywhere from one to 
four or five military personnel associated with them.
    There are other military members on the continent, but they 
are in their rotational basis in and out, conducting 
specialized training activities and exercise-related missions. 
Once those training activities and exercises are conducted, 
then they leave, so they are in there on a Temporary Duty 
(TDY)-type of a basis.
    Ambassador Mull. And, Madam Chair, for the State 
Department, we have 853 State Department officers at embassies 
in Africa, and that that is of a total--we estimate that 
there--when you count all U.S. Government agencies attached to 
an embassy in Africa, it is about 2,000.
    Ms. Castor. Thank you, gentlemen.
    Mr. Meek.
    Mr. Meek. Thank you, Madam Chair.
    And I want to welcome the Secretary and General and 
Ambassador for coming before the committee. There has been a 
lot of running around with all of us with the votes and all, 
and serving on other committees.
    I know that you all have been talking a lot about placement 
today, and that is not going to be--I don't want to spend a lot 
of time on that.
    But I think it is important, since we have gotten off to a 
rocky start, which has improved from the people that I have 
talked to, on the continent--and I wasn't here, and I don't 
know if the chairman had an opportunity--who oversees the 
African Subcommittee, Chairman Payne--did he have an 
opportunity to ask any questions?
    We were here having a discussion about some of the things 
people are upset about on continent--and there is a lot of work 
to be done. And I am glad that State is at the table.
    I am glad that USAID and--I mean, there is just a number 
of--and DOD--at the table to help smooth over some of these 
issues.
    But I think what I don't want to happen--I don't want to 
get--I guess, Mr. Secretary and Ambassador, since you all are 
representing jointly the two agencies in question--and, General 
Ward, if you wish to chime in--on this issue of all of a sudden 
I pick up the Washington Post and learn that the command has 
been set in a country.
    And it was based on an agreement where either the President 
or the Secretary of State said that we would be, you know, we 
would put our command there.
    Because we have so many different issues amongst the 
African countries--some get along with others, some don't get 
along with others--down in Southern Command (SOCOM)--I mean, 
Southern Command was once talked--it was once in Colombia. 
Where was it located?
    Secretary Henry. Panama.
    Mr. Meek. Panama, I am sorry. In Panama. And then there was 
a big discussion about moving it to Miami.
    And the reason why they moved it to Miami and they didn't 
move it to Tampa or move it over to Louisiana, there were a 
couple of places that wanted the Southern Command, and other 
countries, was that it had to be neutral ground, where all of 
the partners, just about all of the partners, felt comfortable 
in being there. Because it is South America, a Spanish language 
or bilingual city was important.
    And so I don't know if once we talk about should we be on 
the continent or should we not be on the continent. I want to 
know how this decision is going to be made.
    Is it going to be made here in Washington? Is it going to 
be made in the area? Will these countries be consulted? Do we 
take a vote? I mean, what happens?
    Because I am just trying to find out, because I think as we 
look at this command, and as it starts to stand up and, fully 
functional, and build its relationships within--because that is 
going to be hard enough, and I know how clannish people are 
about power and being able to control certain things.
    And I know General Ward. He has to be a praying man to make 
sure that everyone understands what has to happen here. And I 
just want to know how that--I want to go a little deeper, 
because I don't want to spend a lot of time on it.
    I just want to--just give me a feel of how this decision is 
going to be made. Is it going to be our decision or is it going 
to be something that we work with our friends with on?
    Secretary Henry. Well, it is a United States decision. You 
know, it can't be made, and we are not going to go somewhere we 
are not wanted. I mean, that is a fundamental precept we have 
in our global force posture.
    The process is one where a number of factors were put 
together to come up with a short list of where we might look, 
and it is all the issues you are talking about, military 
issues, and it was a spectrum of issues.
    There was a weighting system given to those, and there was 
an analytical process to come up with a short list. At that 
point in time, then a team goes out and does a site survey, 
looking at the capacity and capability of that site to be able 
to support the type of staff that we are talking about.
    It also works with the embassy team and the country to get 
their inputs. That is brought back, and then the evaluation 
criteria are re-looked at with more detailed information.
    There are a number of people besides the analysis team that 
are involved in the process at that point in time, in making 
recommendations to the Secretary. The combatant commander would 
be one. The chairman of the Joint Chiefs of Staff would be one. 
Those who work in international policy would be one.
    And at that point in time, then he will be briefed on what 
the recommendations are, and I would imagine at that point in 
time he would consult with the Secretary of State on this also.
    As part of the evaluation effort--and the teams have put it 
together--it is an integrated DOD-State Department team--and 
bringing in other parts of the U.S. Government where 
appropriate, and they have expertise to add.
    The decision is taken to the Secretary, though, in 
consultations with his peers and that--he is given the 
decision, and then he would inform the President and make sure 
that the President is comfortable with that decision.
    Now, normally when we make decisions about what we are 
doing with our U.S. forces, we consult with other countries who 
are stakeholders in the process, but we make the decision, and 
this would be done similarly.
    But you can be confident that we will do significant 
consultation prior to making a final decision outside of the 
U.S. Government with our African partners and also perhaps with 
key European partners.
    Mr. Meek. You know, Mr. Secretary, one of the problems of 
how we got off to a rocky start is that we told them what we 
were going to do.
    And that is what I am hearing back, not necessarily what I 
heard from you all. This is what I am hearing from the folks 
that are in country, some of the countries.
    You know, you talk about African Command--they came in and 
told us, you know, how the show is going to go.
    And I am just saying that I just want to make sure that on 
the State side that there is some massaging going on, and there 
is a discussion that is going on, and making people feel that 
they are a part of this, because without them, we are dead in 
the water.
    I mean, to be honest with you, as it relates to 
communications, I think some of the best lessons learned have 
been in the Middle East where we have consulted with other 
countries and worked with them in a way and made them feel--I 
am not saying that someone down in, I don't know, wherever, 
what have you--or Tunis--is going to make a decision on what 
the U.S. military and the State Department of the Federal 
Government is going to do.
    But I just want to make sure, as we move--especially as we 
look at some of the issues that are in the continent, 
especially as it relates to some of the issues that are in 
Somalia and others, and the missions that have to be carried 
out--humanitarian, militarily--that this relationship is so 
very, very important.
    I just wanted to say that, Madam Chair, quickly. I don't 
know if they called us over, but I just need----
    Ms. Castor. They did, but you have such a keen interest in 
this. I want you to take all the time you need----
    Mr. Meek. Okay. Well, thank you----
    Ms. Castor [continuing]. To make sure we have----
    Mr. Meek [continuing]. So very much. We won't miss the 
vote. My interest won't go that far.
    But I just want to make sure--thank you, though. I just 
want to make sure that I don't pick up the Post and all of a 
sudden a decision has been made. Where are we in that process 
right now, that long process you just laid out?
    Secretary Henry. We are in the process where teams have 
gone out to gather information. That aspect of it has not 
completed.
    Mr. Meek. Okay.
    Secretary Henry. So we don't have the detailed information 
in order to do a second round of evaluation yet.
    Mr. Meek. Okay. Well, that is the million-dollar question 
right now, where it is going to be and where will it end up.
    I guess the second end of things--and I am going to be in 
Africa over the break and have an opportunity to see some of 
the operations that we do have ongoing there, and also heavily 
on the State side, understanding how we are doing things over 
there and how we are going to approach it.
    We start looking at the whole budget issue--I was in Tunis, 
Tunisia a couple of years--no, I don't know, about three months 
ago, three or four months ago--I was in Tunis, and I was--I 
know that we have our advanced Arabic school there, and I know 
that we have a great mission that is there.
    And I took the opportunity to go visit the mission and talk 
to not only the Defense attache but also the folks on the State 
side.
    One of their concerns is the fact that we really don't have 
a good public affairs budget to be able to work with young 
people that are being influenced by other forces that are out 
there that are getting their attention, to put a positive image 
on the United States of America.
    And I just wanted to ask, what level are we going--and this 
is the Armed Services Committee, but there has to be some--a 
human side to this, or it is not going to work.
    And I just want to make sure that we don't get too excited 
about helicopters and things of that nature, and that we are--
that someone or some folks on this committee--because forcing 
it through a square hole is not going to--you know, a square 
peg through a round hole is just not going to happen.
    And I think that is lessons learned from Iraq and 
Afghanistan and some other areas, and where we are making great 
leaps and bounds is when we incorporate this kind of--so talk 
to me a little bit about what is happening on that side of the 
ball.
    How is that going to, General, feed into the command that 
you have now? And who will be outside of State?
    Because I am just telling you, I feel like a child that has 
been in the middle of a domestic violence fight, and I know who 
usually kinds of wins these fights when it comes down to these 
issues, especially trying to do something in a joint way.
    Who is going to be the advocate within DOD and the State 
pushing, because, really, to get anything through this process 
here, it has to be DOD. You know, on the State side folks are 
like oh, you know, maybe, maybe I feel--I don't know.
    But if the Department of Defense say that this is important 
to our mission in that command, then it will be prioritized, 
and we will have countries that will be able to receive--or 
missions that--U.S. missions that will be able to receive the 
dollars, that can work with African Command, to make sure that 
that image that we want of the United States of America is the 
best image that we can put forth, and have the resources to do 
that.
    And that is so very, very important.
    Secretary Henry. Yes. I will let General Ward speak to 
specifically what they are doing in the command. But I mean, 
this is an example of the way that we do things interagency.
    The President has designated the State Department for the 
lead in public diplomacy and strategic communications, headed 
by former Under Secretary Hughes. And we align ourselves with 
those processes.
    And I mean, on one hand, people are very concerned about 
the militarization of foreign policy, and other times we get 
urged to step forward and take charge.
    And this is a case where State Department is in the lead. 
They lay out the program and we support it, and we put 
resources against it.
    But until the President directs us otherwise, which we 
would not recommend that he do, we are going to be in the 
supporting role to the State Department on this.
    Now, that doesn't mean that within the command there is not 
certain aspects that go on, but setting the policy for it and 
the overall program is the State Department's lead.
    General Ward. Congressman Meek, one of the things that the 
command will do by design--and we talked about this unique 
structure. We have typically stumbled into these sorts of 
things because we had not gotten it correct.
    This command will have a director for outreach who is a 
very senior and at this point in time nonmilitary member of the 
team to ensure that following, as the under secretary pointed 
out, you know, the lead of the Department of State in our 
strategic communications activities, that we are aligned with 
the Department of State, that we are, in fact, going out and 
understanding from the perspective of our intended audience 
what sorts of things will make a difference for them, and then 
putting the programs in place to address their need for 
understanding, information and perspective, again, from their 
perspective.
    And so this director of outreach--and again, not there yet 
because, again, we are a command under construction, and those 
elements are being built, but we are building those elements 
with a very determined appreciation for the point that you have 
just made there with respect to outreach and messaging and 
strategic communications.
    At the current time, you know, I am doing a lot of it 
personally, quite candidly. As I have gone around the 
continent, most recently, in central Africa last week at the 
African Union headquarters, engaging with heads of state and 
others--also with the media, but again--as well as at the 
request of our ambassadors who are there on the continent.
    As I attended one of their sessions here in Washington 
where the Secretary of State brought in the----
    Ms. Castor. Excuse me, General. We have five minutes left 
to vote, so if you could just wrap it up, that would be 
appreciated.
    General Ward [continuing]. Brought in the sub-Saharan 
ambassadors, messaging with them so that as they are talking 
about the command, it is, again, speaking with one voice.
    So we will remain sensitive to that, and structurally the 
director of outreach will have that as a very specific part of 
their portfolio.
    Mr. Meek. And thank you, gentlemen.
    And thank you, Madam Chair.
    And I look forward to working with the three of you, all of 
you in DOD and State, making sure that we have a smooth 
approach in standing up this command. Thank you.
    Ms. Castor. And thank you, Congressman Meek, for your 
leadership on this issue.
    Gentlemen, thank you very much.
    And to everyone else in attendance, thank you for being 
here.
    The hearing is adjourned.
    [Whereupon, at 1:08 p.m., the committee was adjourned.]


=======================================================================



                            A P P E N D I X 

                           November 14, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 14, 2007

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
